No. 20-138
In The
Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL., Petitioners,
v.
SIERRA CLUB, ET AL., Respondents.
____________
On Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit


CERTIFICATE OF SERVICE
Benjamin P. Sisney, a member of the Bar of this Court and an attorney for
amicus, pursuant to Rule 29, hereby certifies that three (3) hard copies of the
Amicus Curiae Brief of the American Center for Law & Justice in Support of
Petitioners have this day been served, via U.S. Mail, upon all parties required
to be served, identified below:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel of Record for Petitioners
Joshua A. Klein
California Department of Justice
Office of the Solicitor General
1515 Clay Street
Suite 2000
Oakland, CA 94612-1413
510-879-0756
joshua.klein@doj.ca.gov
Counsel of Record for Respondent State of California

Cecillia D. Wang
Deputy Legal Director
Director, Center for Democracy
American Civil Liberties Union
39 Drumm Street
San Francisco, CA 94111
415.343.0775
Cwang@aclu.org
Counsel for Sierra Club
Dror Ladin
American Civil Liberties Union
125 Broad Street, Fl 18
New York, NY 10004
212.284.7303
dladin@aclu.org
Counsel for Sierra Club

/s/ Benjamin P. Sisney
Benjamin P. Sisney
American Center for Law & Justice
201 Maryland Avenue, NE
Washington, DC 20002
202-384-0259
bsisney@aclj.org
Counsel for Amicus Curiae
December 15, 2020

